<html>
<title> - S. 462, SHOSHONE-PAIUTE TRIBES OF DUCK VALLEY WATER RIGHTS SETTLEMENT ACT</title>
<body><pre>[Senate Hearing 110-105]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-105
 
 S. 462, SHOSHONE-PAIUTE TRIBES OF DUCK VALLEY WATER RIGHTS SETTLEMENT 
                                  ACT 
=======================================================================
                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 26, 2007

                               __________

         Printed for the use of the Committee on Indian Affairs

                              -------

                     U.S. GOVERNMENT PRINTING OFFICE

34-994 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001























                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                  CRAIG THOMAS, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
DANIEL K. AKAKA, Hawaii              TOM COBURN, M.D., Oklahoma
TIM JOHNSON, South Dakota            PETE V. DOMENICI, New Mexico
MARIA CANTWELL, Washington           GORDON H. SMITH, Oregon
CLAIRE McCASKILL, Missouri           RICHARD BURR, North Carolina
JON TESTER, Montana
                Sara G. Garland, Majority Staff Director
              David A. Mullon Jr. Minority Staff Director















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 26, 2007...................................     1
Statement of Senator Dorgan......................................     1
Statement of Senator Thomas......................................    22

                               Witnesses

Biaggi, Allen, Director, Department of Conservation and Natural 
  Resources, State of Nevada.....................................    17
    Prepared statement with attachment...........................    18
Prior, Kyle, Chairman, Shoshone-Paiute Tribes, Duck Valley 
  Reservation....................................................     9
    Prepared statement...........................................    11
Ragsdale, W. Patrick, Director, Bureau of Indian Affairs, 
  Department of the Interior.....................................     6
    Prepared statement...........................................     6
Reid, Hon. Harry, U.S. Senator from Nevada.......................     2
    Prepared statement...........................................     4

                                Appendix

Ensign, Hon. John, U.S. Senator from Nevada, prepared statement..    25
Heller, Hon. Dean, U.S. Representative from Nevada, prepared 
  statement......................................................    25


   SHOSHONE-PAIUTE TRIBES OF DUCK VALLEY WATER RIGHTS SETTLEMENT ACT

                              ----------                              


                        THURSDAY, APRIL 26, 2007

                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
485, Senate Russell Office Building, Hon. Byron L. Dorgan, 
Chairman of the Committee, presiding.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. I will call the Committee to order. This is a 
hearing of the Committee on Indian Affairs on S. 462, the 
Shoshone-Paiute Tribes of the Duck Valley Reservation Water 
Rights Settlement Act of 2007.
    The purpose of today's hearing on the Duck Valley Water 
Rights Settlement Act is to receive testimony that will guide 
this Committee in reviewing legislation to ratify an Indian 
water settlement and resolve tribal monetary claims against the 
United States.
    This particular settlement involves the tribes of the Duck 
Valley Reservation, individual water rights holders, and the 
State of Nevada. S. 462 will ratify an agreement that 
quantifies the water rights of parties to the Nevada 
adjudication of the East Fork of the Owyhee River. The bill 
will legislatively settle the Duck Valley Tribes' claims 
against the United States for compromising tribal water rights 
and failing to maintain Federal irrigation projects serving the 
reservation.
    Today, we will hear from Senator Harry Reid, the bill's 
sponsor. I believe this is the first time that the Majority 
Leader of either caucus has testified before this Committee. I 
know Senator Reid has long been a Member of this Committee, and 
we welcome him.
    I want to thank the Senator for his past service on this 
Committee, and I am pleased that he continues to advocate 
strongly on behalf of American Indians and Indian country on 
important matters like health care, housing, law enforcement, 
and more.
    I look forward to hearing his testimony on this legislation 
and learning how it will affect Nevadans. I understand Senator 
Reid has an obligation on the Senate Floor which will require 
him to leave before the hearing concludes, but we appreciate 
him being here.
    We will also receive testimony from Senator John Ensign, 
the bill's co-sponsor. Although Senator Ensign cannot be here 
this morning, his written testimony will be included in full in 
the hearing record. The record of this hearing will remain open 
for 2 weeks following today's hearing so that additional 
testimony may be submitted as well.
    The Committee will also hear directly from parties to the 
negotiated water rights agreement and settlement discussions 
involving the East Fork of the Owyhee River. I congratulate all 
of the parties on reaching an agreement after decades of 
litigation, administrative adjudications, and negotiations in 
both Nevada and in Idaho. I understand that the Department of 
the Interior has some concerns with the Nevada agreement and 
bill, and we will look forward to receiving their testimony as 
well.
    Senator Reid, thank you for journeying over to the 
Committee this morning. We look forward to hearing your 
testimony.

                 STATEMENT OF HON. HARRY REID, 
                    U.S. SENATOR FROM NEVADA

    Senator Reid. Mr. Chairman, thank you very much. I do have 
many fond memories of this Committee, the service especially 
rendered by Senator Inouye for his many years of service and 
being an exemplary Chairman, and you and I, of course, and our 
years together in Congress. You have been the leader in talking 
about Indian health and the problems of Indians in general. So 
the Committee is well served by having you as Chair.
    This bill, the Shoshone-Paiute Tribes of Duck Valley Water 
Rights Settlement Act, is important because we know it will 
benefit the tribes of Duck Valley, the ranchers, upstream water 
users, and residents of the Northern Nevada and Southern Idaho 
region. This bill will ratify the agreement reached by the 
parties to Nevada's East Fork of the Owyhee River adjudication, 
which is supported by the tribes, the State of Nevada and all 
the affected individual water users.
    Mr. Chairman, this tribe really deserves this. It is a 
wonderful, beautiful scenic area. Of course, when the 
reservation was placed, they [the Federal Government] picked a 
place where the growing season is very short. It is on a very 
small river. In Nevada, we don't have big rivers except the 
Colorado. Most rivers are very, very tiny and they are few in 
number.
    This bill is supported not only by those that I have 
mentioned, but the Elko County Board of Commissioners, where 
the reservation is located in Elko County, NV. They support the 
bill. The Nevada State legislators who represent this area 
support the bill, Assemblyman Carpenter and Senator Rhoads.
    Our bill only addresses the Owyhee River litigation. Both 
my colleagues from the State of Idaho, Senator Craig and Crapo, 
support the agreement to be ratified by this bill and support 
the tribe in resolving its claims against the United States. In 
a spirit of cooperation and consensus building, Senator Ensign 
and I are working with our colleagues from Idaho on an 
amendment that would limit tribal water marketing. We are going 
to introduce that at the markup of this bill.
    This legislation reflects many hard years of work, as you 
mentioned in your opening statement, Mr. Chairman. All parties 
have worked closely to create a bill that resolves one of the 
last tribal water rights disputes in Nevada.
    I strongly support this bill because it brings certainty to 
water rights held by the tribes, family farmers and ranchers, 
and the State of Nevada. It resolves tribal claims against the 
United States for its failure to protect the tribes' water 
rights and natural resources. And it ends decades of litigation 
and negotiations.
    How will these goals be accomplished? First, the bill would 
approve ratifying and confirming the negotiated agreement. It 
is important to resolve the water rights dispute because it 
will allow farmers and ranchers to determine how much surface 
water they can use for crops and grazing. It gives them 
certainty, which they don't have now. The gauges, dams, and 
irrigation canals will be rehabilitated or replaced to improve 
irrigation and increase irrigable acreage in one of Nevada's 
important agricultural areas.
    Second, the bill will settle the tribes' longstanding 
claims against the United States. As a result of the Bureau of 
Reclamation's Owyhee Irrigation Project in the 1930s and the 
Bureau of Indian Affairs' Duck Valley Irrigation Project during 
the same time, the tribes' salmon and steelhead trout runs and 
fish stock were destroyed. The tribe relied on these runs for 
food, their local economy, and for cultural uses, and they did 
this for many, many decades.
    Further, because the United States failed to defend the 
tribes' water rights when some of Nevada's early settlers 
arrived along the Owyhee River, the tribe lost water rights to 
support their fishing economy, their ranches, and their farms.
    All of the tribes' claims against the United States in the 
Owyhee River litigation will be settled by this litigation. 
While the United States can never fully compensate the tribes 
for their loss with money, I appreciate the tribes' willingness 
to accept the proposed settlement figure.
    Just as the tribes have compromised, I hope the Department 
of the Interior and this Administration will work with Senator 
Ensign and with me to address their concerns with the bill and 
gain their support. I smiled, Mr. Chairman, when you said the 
BIA did not support this legislation, that the Department of 
the Interior did not support it. I have never known them to 
support any of them. We always have to come and work and cajole 
with the department. They have been difficult to work with at 
times.
    So I hope it is time to end this painful part of our 
sovereign-to-sovereign relationship. I really appreciate the 
Committee's time and consideration of this bill. Without 
congressional action, the tribes, the State and affected 
individuals will have to resume costly litigation. The tribes, 
farmers and ranchers would not be able to manage their 
businesses efficiently without knowing their surface and 
storage water rights.
    The Wild Horse Reservoir, frequented by outdoor enthusiasts 
and fishermen would not be guaranteed sufficient water for 
their use and enjoyment. And the tribe would not be able to 
address their housing and economic development needs without a 
settlement that provides funds for water and irrigation 
infrastructure development.
    This bill brings certainty to these individuals and 
communities with water rights and finality to the parties of a 
decades-old adjudication. I am proud to support the efforts of 
our constituents in concluding the Owyhee River adjudication.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Reid follows:]

    Prepared Statement of Hon. Harry Reid, U.S. Senator from Nevada
    Mr. Chairman, Vice Chairman, and Members of the Committee. Good 
morning.
    It is a pleasure to be here, in this hearing room. As a former 
member of this distinguished Committee, I've spent many hours here 
working on difficult problems. Serving on this Committee with my good 
friend and the former Committee Chairman, Senator Inouye, was a special 
honor. And it allowed me to serve some of Nevada's most deserving and 
vulnerable residents, which is something I am pleased and proud to 
continue to do.
    Thank you for inviting me to testify on this bill.
    Senator John Ensign and I sponsored the Shoshone-Paiute Tribes of 
Duck Valley Water Settlement Act because we know it will benefit the 
Tribes of Duck Valley. the ranchers and upstream water users, and the 
residents of the northern Nevada and southern Idaho region.
    Indeed our bill to ratify the agreement reached by parties to 
Nevada's East Fork of the Owyhee River adjudication is supported by the 
Tribe, the State of Nevada and all of the affected individual water 
users.
    The Elko County Board of Commissioners--where the Reservation is 
located--supports the bill. And the Nevada State legislators who 
represent this area in Elko County--Assemblyman John Carpenter and 
Senator Dean Rhoads--support the bill.
    While our bill only addresses the Owyhee River litigation, both of 
my colleagues from the State of Idaho, Senators Craig and Crapo, 
support the agreement to be ratified by this bill and support the Tribe 
in resolving its claims against the United States. In a spirit of 
collaboration, Senator Ensign and I are working with our colleagues 
from Idaho on an amendment that would limit tribal water marketing. We 
expect to introduce the amendment during the Committee's mark-up of S. 
462. The Nevada and Idaho delegations will continue to work closely to 
pass this legislation that helps our constituents.
    Mr. Chairman, this legislation reflects years of hard work and 
compromise by Nevadans on matters that affect their livelihoods and 
cultures. They have worked closely with us to create a bill that 
resolves one of the last tribal water rights disputes in Nevada.
    I strongly support this bill because:

  <bullet> It brings certainty to water rights held by the Tribes, the 
        family farmers and ranchers, and the State;

  <bullet> It resolves the tribal claims against the United States for 
        its failure to fully protect the Tribe's water rights and 
        natural resources;

  <bullet> And it ends nearly 2 decades of litigation and negotiations.

    First, the bill would approve, ratify, and confirm the negotiated 
agreement that quantifies the various types of water rights held by the 
Tribe and the upstream water users. The State of Nevada and the Tribe 
will administer and enforce these rights.
    It is important to resolve the water rights dispute because it will 
allow farmers and ranchers to determine how much surface water they can 
use for crops and grazing. They will know how much stored water they 
have and can use for irrigation and domestic use under drought 
conditions. The gauges, dam and irrigation canals will be rehabilitated 
or replaced to improve irrigation and increase irrigable acreage in one 
of Nevada's important agricultural areas.
    Second, the bill will settle the Tribes' long-standing claims 
against the United States. As a result of the Bureau of Reclamation's 
Owyhee Irrigation Project in the 1930s and the Bureau of Indian 
Affairs' Duck Valley Irrigation Project during the same time, the 
Tribe's salmon and steelhead trout runs and fish stock were destroyed. 
The Tribe relied on these runs for food, their local economy, and 
cultural uses.
    Further, because the United States failed to defend the Tribe's 
water rights when some of Nevada's early settlers arrived along the 
Owyhee River, the Tribe lost water rights to support their fishing 
economy, ranches, and farms.
    All of the Tribe's claims against the United States in the Owyhee 
River litigation will be settled by this legislation. The bill would 
authorize a $60 million settlement so the Tribe could develop their 
water rights.
    The Tribe calculates the harm caused by the Federal Government at a 
much higher level than the bill's $60 million figure that Senator 
Ensign and I propose. The Department of Interior however, recently re-
evaluated the Federal liability for these tribal claims. While the 
Department proposed a $40 million figure during negotiations, the 
Department most recently and without explanation, valued the claims at 
less than $10 million. Both proposals are significantly less than the 
Senate-proposed $60 million figure. Senator Ensign and I disagree with 
the Department's most recent assessment and stand by our original 
proposal of $60 million.
    While the United States can never fully compensate the Tribes for 
their loss I appreciate the Tribes' willingness to accept the proposed 
settlement figure. Just as the Tribes have compromised, I hope that the 
Department of Interior and this Administration will work with Senator 
Ensign and I to address their concerns with the bill and gain their 
support. It is time to end to this painful part of our sovereign-to-
sovereign relationship.
    Mr. Chairman, I appreciate this Committee's timely consideration of 
this bill.
    Without Congressional action, the Tribe, the State and the affected 
individuals would have to resume costly litigation. The Tribe, farmers 
and ranchers would not be able to manage their businesses efficiently 
without knowing their surface and storage water rights. The Wild Horse 
Reservoir, frequented by outdoor enthusiasts and fishermen, would not 
be guaranteed sufficient water for their use and enjoyment. And the 
Tribe would not be able to address their housing and economic 
development needs without a settlement that provides funds for water 
and irrigation infrastructure development.
    This bill brings certainty to those individuals and communities 
with water rights and finality to the parties of a nearly 20-year 
adjudication. Senator Ensign and I are proud to support the efforts of 
our constituents in concluding the Owyhee River adjudication.
    Thank you for the opportunity to join you again today. I look 
forward to working with the Members of this Committee to facilitate the 
bill's approval and passage in the U.S. Senate.

    The Chairman. Senator Reid, thank you very much.
    I had mentioned that the Department of the Interior has 
some concerns. As you mentioned, that is not particularly 
unusual. The Department of the Interior seems to always have 
some concerns. But let me just say to you and to those who have 
been involved in negotiating a settlement here, I think it is 
encouraging that the parties can get together and try to find 
common ground, which has been the case. I commend you and 
Senator Ensign for bringing this legislation to the Senate.
    So let me thank you for your testimony today, and we will 
allow you to get back to your busy schedule. Senator Reid, 
thank you for being here.
    Next, we will hear from Patrick Ragsdale, Director of the 
BIA at the Department of the Interior. Mr. Ragsdale, thank you 
for being here.
    Kyle Prior, Chairman of the Shoshone-Paiute Tribes, Duck 
Valley Reservation in Nevada; and Allen Biaggi, Director of the 
Department of Conservation and Natural Resources in the State 
of Nevada, Carson City, NV.
    We thank all three of you for joining us today to provide 
testimony to this Committee. Mr. Ragsdale, you heard my comment 
to Senator Reid. We invite the Department of the Interior here 
because you and the BIA obviously have interests in all of 
these issues. It is the case that the Department of the 
Interior seems to have a lot of concerns, but this Committee is 
always anxious to hear them, and we appreciate your being here. 
Why don't you proceed?
    The entire statement that is offered by all three of you 
will be made a part of the permanent record. Let me also say 
that the Ranking Member, Senator Thomas, is not able to be with 
us this morning, at least in the early part of this hearing. He 
has another hearing, but he joins me in welcoming all three of 
you.
    Mr. Ragsdale, you may proceed.

 STATEMENT OF W. PATRICK RAGSDALE, DIRECTOR, BUREAU OF INDIAN 
              AFFAIRS, DEPARTMENT OF THE INTERIOR

    Mr. Ragsdale. Thank you, Mr. Chairman. It is good to be 
here again, and thank you for including my full statement in 
the record. I will summarize my statement and try to be brief 
for the Committee's benefit.
    The Department of the Interior supports negotiated 
settlements of water rights between and among Indian tribes, 
States, and local parties, which include the Federal Government 
in its role as trustee. We have preferred the process of 
negotiation and settlement over the process of protracted and 
costly litigation for more than two decades.
    We believe that the benefits are obvious when local 
stakeholders can work out collaborative solutions that provide 
mutual benefits that quantify water rights which will enhance 
economic development and ensure environmental quality.
    In 1990, the Department of the Interior published guidance 
in the form of criteria and procedures in the Federal Register 
to establish the basis for negotiating settlements and foster a 
process for framework for negotiation.
    That being said, the Administration opposes this particular 
bill, S. 462, because the bill is inconsistent with the overall 
guidance published in the Federal Register. This bill would 
authorize a Federal payment of $60 million without any Federal 
cost share. We note the bill language in paragraph seven of 
section II states that all the parties have entered into a 
settlement agreement, including the United States. This is not 
accurate because it has not been executed for the reasons 
contained in my full statement.
    There are other concerns about the provisions in the 
proposed water settlement agreement that the bill embraces that 
need a review to ensure finality to the settlement. These 
concerns are both monetary and non-monetary.
    In conclusion, we are committed to supporting the 
settlement process. More importantly, we are prepared to re-
engage in the process of negotiation to work out the 
provisions, including appropriate cost sharing, which may be 
monetary and non-monetary in nature, that benefit the Shoshone-
Paiute Tribes, the State of Nevada, and local entities.
    Finally, I want to stress that we wish to work with the 
parties and this Committee, as well as the Nevada delegation, 
to advance this settlement.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Ragsdale follows:]

 Prepared Statement of W. Patrick Ragsdale, Director, Bureau of Indian 
                  Affairs, Department of the Interior
    Good morning Mr. Chairman and Members of the Committee. I 
appreciate the opportunity to appear before this Committee today to 
discuss S. 462, a bill titled the ``Shoshone-Paiute Tribes of Duck 
Valley Water Rights Settlement Act.'' I want to emphasize at the outset 
of this statement that the Department of the Interior's support for 
negotiated settlements as an approach to resolving Indian water rights 
remains strong. For over 20 years, Indian Tribes, States, local 
parties, and the Federal Government have recognized that, when 
possible, negotiated Indian water rights settlements are preferable to 
protracted litigation over Indian water rights claims.
    In addition to defining the extent of tribal water rights, 
negotiations allow settlement parties to develop creative solutions to 
water use problems. Rather than pitting neighbor against neighbor in a 
zero-sum legal battle, Indian water rights settlement negotiations 
engage local stakeholders in forward-looking discussions to seek 
solutions that will stimulate economic development, enhance 
environmental quality, and provide a platform for improved 
relationships between Tribes and other local entities. The 
Administration's commitment to cooperative conservation embraces the 
belief that those who live and work on the land offer the best 
perspective on issues involving the resources that they depend on for 
their economic survival. This perspective informs our commitment to 
resolve some of the most difficult issues surrounding water and future 
economic development for tribal governments as well as those who depend 
on resource-based economies.
    The United States supports the settlement process, and we are 
committed to attaining a final settlement of the water rights of the 
Shoshone-Paiute Tribes of the Duck Valley Reservation. We oppose S. 462 
as written because the settlement it proposes is inconsistent with our 
policy that settlement costs reflect the value of the claims being 
resolved and should also be proportionate to benefits received. This 
bill as currently written would authorize a Federal payment of $60 
million without any non-Federal cost share.
    I would like to make an initial point about the current status of 
these negotiations and the Agreement between the parties to this 
proposed settlement. S. 462 states in paragraph 7 of section 2 that the 
United States, the Tribes, the State of Nevada, and the upstream water 
users have entered into a settlement agreement to resolve the water 
rights of the Tribes. This is not accurate. Although the Administration 
supports most of the water allocations set forth in the Agreement 
underpinning this legislation, the United States opposes some of the 
provisions contained in the Agreement and has not executed it. The 
Agreement contains numerous terms that contradict policies regarding 
water rights settlements that are designed to ensure finality and 
protect the interests of the Tribes and all American taxpayers.
    The balance of my statement today will begin with some background 
on the history of the Duck Valley Reservation and the negotiations 
leading up to this proposed settlement. I will then discuss some 
specific concerns that the Administration has regarding S. 462.
History of Settlement Negotiations
    The Duck Valley Reservation, home to the Shoshone-Paiute Tribes, 
straddles the Idaho-Nevada border along the Owyhee River, a tributary 
to the Snake River. The Reservation was established by Executive Order 
on April 16, 1877, and expanded by Executive Orders on May 4, 1886 and 
July 1, 1910. The downstream Owyhee Project, a Bureau of Reclamation 
Project that irrigates more than 100,000 acres of land in eastern 
Oregon and western Idaho, has blocked anadromous fish passage and ended 
what was once a valuable on-reservation fishery. The Tribes' primary 
source of income now is the irrigated agriculture made possible by the 
Duck Valley Irrigation Project, which is owned by BIA and operated by 
the Tribes under a Self-Governance compact.
    The State of Idaho initiated the Snake River Basin Adjudication 
(SRBA) in 1987. Soon thereafter, the State of Nevada reopened its 
adjudication of the Owyhee River, a tributary to the Snake River, an 
adjudication originally initiated in 1924. Both of these adjudications 
involve the water rights of the Shoshone-Paiute Tribes. The United 
States filed claims in Idaho's SRBA and Nevada's Owyhee River 
adjudication on behalf of the Shoshone-Paiute Tribes.
    At the request of the Parties, a Federal Negotiation Team was 
formed in 1990. After over a decade of negotiations, and with the 
participation of the Federal Team, in 2005 the Shoshone-Paiute Tribes 
came to agreement with the States of Idaho and Nevada and affected 
water users on the water allocation aspects of settlement agreements in 
both States. The overarching settlement issue, however, remained the 
appropriate Federal and State financial contributions to the proposed 
settlement. The Tribes and States were disappointed with the 
Administration's position that the Federal contribution to the 
settlement should be $9.3 million, with a non-Federal contribution of 
$5.4 million, to settle the Tribes' claims in both Idaho and Nevada.
    Discussions with the State of Idaho foundered and the proposal for 
Idaho or its water users to make any financial contribution was 
rejected. Instead, because of looming litigation deadlines, Idaho 
decided to make an offer of judgment based on the filings made by the 
United States on behalf of the Tribes. Evaluating the State's offer of 
judgment and determining that it provided an outcome to the litigation 
that was as good as, or better than, what could reasonably be expected 
if the litigation proceeded through trial, the United States accepted 
the offer, which effectively concluded the Idaho portion of this 
settlement by confirming certain water rights in the Tribes.
    The Nevada portion remains unresolved. Although talks have taken 
place between the Tribes and the Nevada State Attorney General's Office 
over the contents of a proposed Agreement, the Administration has not 
been included in those discussions in recent years. Numerous changes 
would be required before we could recommend that the Federal Government 
enter into this Agreement.
The Role of the Criteria and Procedures
    When negotiating and evaluating Indian water rights settlements, 
the Administration follows longstanding policy guidance on Indian water 
settlements found at 55 Fed. Reg. 9223 (1990), Criteria and Procedures 
for the Participation of the Federal Government in Negotiations for the 
Settlement of Indian Water Rights Claims (``Criteria''). Among other 
considerations for Federal participation in the negotiation of Indian 
water rights settlements, the Criteria provide guidance on the 
appropriate level of Federal contribution to settlements, incorporating 
consideration of calculable legal exposure plus costs related to 
Federal trust or programmatic responsibilities.
    The Criteria call for Indian water rights settlements to contain 
non-Federal cost-sharing proportionate to the benefits received by the 
non-Federal parties, and specify that the total cost of a settlement to 
all parties should not exceed the value of the existing claims as 
calculated by the Federal Government. These principles are set out in 
the Criteria so that all non-Federal parties have a basic framework for 
understanding the Executive Branch's position.
    Equally important, the Criteria address a number of other issues, 
such as the need to structure settlements to promote economic 
efficiency on reservations and tribal self-sufficiency, and the goal of 
seeking long-term harmony and cooperation among all interested parties. 
The Criteria also set forth consultation procedures within the 
Executive Branch to ensure that all interested Federal agencies have an 
opportunity to collaborate throughout the settlement process.
Monetary Concerns Regarding S. 462
    With this backdrop, we now turn to the fiscal elements of the bill 
before this Committee. The total cost of $60 million significantly 
exceeds the Administration's position on an appropriate Federal 
contribution, and the bill does not specify any non-Federal cost-share. 
As we have said many times before this Committee, the Administration's 
position as set forth in the Criteria is that the fiscal burden 
associated with an Indian water rights settlement should not be borne 
solely by the United States. Other parties receiving benefits under a 
settlement should also contribute based on the value of the benefits 
received. While the Administration has not had the opportunity to 
thoroughly revisit the appropriate monetary contributions to a Duck 
Valley settlement since the Idaho water rights were finally resolved in 
late 2006, we stand ready to work with the Tribes, the Nevada 
delegation, and this Committee to structure appropriate cost-sharing 
provisions consistent with the Criteria.
    Unfortunately, the non-Federal parties to the proposed Duck Valley 
settlement have a very different assessment from the Administration of 
both the benefits from settlement to the non-Federal parties and the 
litigation risk from claims that the Tribes might assert against the 
Federal Government. Based on the Federal assessment of the relative 
benefits and liabilities, non-Federal parties should be contributing 
substantially to the cost of the settlement. This view is based on 
significant litigation cost savings by the State of Nevada as well as 
the benefit to non-Indian water users, who stand to secure water rights 
through settlement that would be subject to limitation were the Tribal 
claims to be litigated. The States and non-Indians water users would 
also benefit from the certainty that comes with settlement of 
outstanding water rights claims. The State cost share would not 
necessarily be entirely in the form of cash; one option that could be 
explored would be non-monetary contributions such as in-kind services 
provided by the State natural resource agencies to support the Tribes' 
water or other resource development. As the Agreement currently stands, 
however, the level of cost share by the non-Federal parties is 
significantly lower than the Administration can support.
    Moreover, S. 462 would require the Federal Government to contribute 
a total of $60 million into two different trust funds for the benefit 
ofthe Tribes. One of the funds, with a proposed Federal contribution of 
$45 million, would be established to enable the Tribes to cover the 
costs of water resource planning and development. The other fund, with 
a proposed Federal contribution of $15 million, would be established to 
cover operation and maintenance costs for the Duck Valley Irrigation 
Project and other water-related projects funded under this Act. The 
Criteria do not generally allow Federal funding of operation and 
maintenance costs. And, as I have discussed above, the total cost of 
the settlement as proposed in this bill is higher than the 
Administration's assessment of an appropriate Federal contribution.
Non-Monetary Concerns Regarding S. 462
    In addition to opposing the proposed Federal funding level, the 
Administration has identified a number of legal and technical flaws in 
both S. 462 as introduced and the underlying Agreement. Without 
attempting to give a line-by-line analysis in this context, I note that 
the Department of Justice does not believe that the bill's waiver 
provisions are correctly drafted. Additionally, the bill presents 
conflicting requirements regarding the release of Federal funds that 
could prevent appropriated funds from ever being released to the Tribes 
if the bill is passed as introduced. We would like to work with the 
Committee and the Nevada delegation to revise the bill to address these 
and other issues that could prevent the bill from achieving its 
intended purpose of achieving a final settlement of the water rights 
claims of the Shoshone-Paiute Tribes of the Duck Valley Reservation.
Conclusion
    The Administration remains committed to supporting the settlement 
process and ensuring that such settlements fulfill the Government's 
responsibilities to Indian Tribes while also protecting the interests 
of the taxpaying public. The Administration hopes that the parties can 
come to an Agreement including an appropriate cost share, so that 
together we can achieve a settlement that will allow the Shoshone-
Paiute Tribes to put their water to use in an economically beneficial 
manner. Water resource development would further the U.S. goal of 
Tribal self-sufficiency and sovereignty.
    Mr. Chairman, this completes my statement. I am happy to answer any 
questions the Committee may have.

    The Chairman. Mr. Ragsdale, thank you very much.
    Next, we will hear from Mr. Prior. Mr. Prior, as I 
indicated, your statement will be made a part of the record as 
well. You are here as Chairman of the Shoshone-Paiute Tribes, 
Duck Valley Reservation. Mr. Prior, why don't you proceed?

STATEMENT OF KYLE PRIOR, CHAIRMAN, SHOSHONE-PAIUTE TRIBES, DUCK 
                       VALLEY RESERVATION

    Mr. Prior. Good morning, Mr. Chairman. I am honored to be 
here to express the support of the Shoshone-Paiute people for 
the water settlement contained in S. 462, a measure that will 
bring us closer to the creation of a sustainable homeland for 
our people.
    In short, this bill has critical importance to the future 
of the Shoshone-Paiute Tribes. First, the bill will approve our 
water rights settlement in Nevada. It has been 130 years since 
our reservation was first established, and the settlement will 
finally establish the Federal reserve water rights of the 
tribes.
    Because of our economy, our very livelihood depends on 
agriculture and stock raising. This water rights settlement 
literally represents the key to our future as a tribe.
    Second, the bill resolves our longstanding water-related 
claims against the Federal Government. These claims involve the 
fundamental failure of the United States to protect our water 
rights and our water and fishery resources. Our settlement 
agreement with Nevada and private water users provides us with 
over 100,000 acre feet of surface water from the Owyhee River, 
storage water from the Wild Horse Reservoir, all water from 
springs and creeks on the reservation, and all present uses of 
groundwater plus perennial yield of the aquifer.
    At the same time, the agreement protects the use of water 
by ranchers south of the reservation. It allows them to 
continue the use of water without interruption in a manner in 
which they have historically irrigated. The only restriction is 
the number of acres that can be irrigated. The parties 
negotiated this acreage number after considerable technical 
work and the field work. Therefore, the Nevada settlement 
provides the water needed by the tribes, and also provides the 
water needed by our neighbors.
    When our reservation was established by Executive Order in 
1877, we already had a tradition of agriculture. We have a long 
history and culture of dependence on salmon fishing. Our Duck 
Valley Reservation represented the best of all worlds: 
Sufficient land for a strong agricultural base; a vital 
fishery; and abundant wildlife and water flows.
    It has been noted that our reservation began as a virtual 
paradise, but because of the detrimental actions and inactions 
of the Federal Government to fully protect our water rights, we 
have been unable to realize its promises for our people. We 
have detailed our claims against the Federal Government in our 
written testimony.
    No. 1, is the failure of the Federal Government to 
establish and protect our water rights in the face of rapidly 
increasing non-Indian settlement in the area surrounding the 
reservation, including extensive non-Indian water development 
that directly affected the availability of water for the 
tribes. On at least two occasions in the 1930s, requests were 
made to the Department of Justice to take steps to protect the 
tribes' water rights, and a detailed complaint was actually 
prepared by the Justice Department in at least one instance, 
but the case was never filed.
    No. 2, is the failure of the Federal Government to provide 
the necessary storage and infrastructure for irrigated 
agriculture. The need for storage was identified as early as 
the 1890s, but it took over 40 years before Wild Horse 
Reservoir was constructed in 1931. Over the years, the basic 
infrastructure for the irrigation project has fallen into 
disrepair and the project is seriously dilapidated due to 
inadequate funding and neglect. In addition, only a portion of 
the anticipated acres have been actually put into production.
    No. 3, is the destruction of our salmon fishery by the 
United States when it constructed the Bureau of Reclamation 
Owyhee Project. The Owyhee Dam served as an insurmountable 
barrier to salmon to reach our reservation, which was once an 
abundant resource for subsistence and commerce, and it was lost 
forever.
    No. 4, is that within the Department of the Interior, the 
interests of the Bureau of Reclamation Owyhee Project were 
consistently favored over the interests of the tribes. 
Development on the reservation was not only significantly 
delayed as a result, but the amount of water made available to 
the tribes was impacted. For example, Wild Horse Reservoir was 
constructed 15 miles south of the reservation, rather than on 
the reservation. Only 40 percent of available water could be 
captured and made available to the tribe as a result. This was 
done so that more water could flow down to non-Indian 
irrigators.
    In a nutshell, at every turn, our water rights have been 
continually sacrificed for the benefit of non-Indian water 
users.
    In 1989, the State of Nevada formally began a water rights 
adjudication in the Owyhee River Basin. Our water rights were 
also at issue as part of the Snake River Basin adjudication in 
Idaho. Since that time, we have spent well over 1 decade 
negotiating a settlement. The negotiations were conducted under 
the department of the Interior's policy and guidelines for 
Indian water settlements, and a Federal negotiating team was an 
active party.
    Throughout the process, the tribes and all of the parties, 
including the United States, anticipated a significant Federal 
contribution by the Federal Government. At the end of our 
negotiations, the Federal negotiating team recommended to the 
Secretary a contribution of $44.9 million. However, at the 
eleventh hour, the Federal Government abandoned this 
recommendation and its own policy that it had utilized for at 
least two decades, and unilaterally reduced its contribution to 
a mere fraction of the Federal team's recommendation.
    Further, the Federal Government is now taking the position 
that there must be a substantial State contribution to 
settlement. This makes little sense because our issue is almost 
entirely Federal. The tribes' water rights in Idaho have since 
been resolved through a consent decree that was entered in 
December 2006. This consent decree quantifies the tribes' water 
rights in Idaho, but does not resolve any of the tribes' 
damages claims against the Federal Government, nor does the 
consent decree provide any means for the tribe to put that 
water to use.
    We now look to Congress to ensure that the tribes can 
benefit from the Nevada agreement and our decree rights in 
Idaho. Passage of this bill will bring closure to a sad chapter 
in our history, and will begin to allow our people and the 
future generations of the tribes to have a viable homeland.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Prior follows:]

  Prepared Statement of Kyle Prior, Chairman, Shoshone-Paiute Tribes, 
                        Duck Valley Reservation
    Mr. Chairman and Members of the Committee on Indian Affairs, thank 
you for inviting me to present testimony on this very important issue, 
the settlement of our water rights claims.
    I am honored to be here to represent the Shoshone-Paiute people and 
to witness the culmination of many decades of hard work and persistence 
by the tribal leaders who came before me to fulfill the vision of our 
forefathers: the creation of a sustainable homeland for our people.
Duck Valley: A Sustainable Homeland
    The Duck Valley Reservation is the homeland of the Shoshone-Paiute 
Tribes. It was established for the Tribes' use and benefit by Executive 
Order in 1877 pursuant to the 1863 Treaty of Ruby Valley. Lands were 
added by Executive Orders in 1886 and 1910, so that today, the 
Reservation encompasses 290,000 acres located within the States of 
Nevada and Idaho. The Duck Valley Reservation is unallotted and the 
entire Reservation is held in trust for the Tribes.
    In 1877, when our forefathers first agreed to be settled on the 
Duck Valley Reservation (the ``Reservation''), they saw a homeland that 
had plentiful wildlife and game, productive agricultural and range 
lands, and an excellent fishery abundant with salmon and steelhead. 
Located in Northeast Nevada and Southwest Idaho, our reservation has 
three primary water sources: (i) the East Fork of the Owyhee River, 
which flows south to north through the Reservation, (ii) Blue Creek, 
which is a tributary to the Owyhee River in the Idaho portion of the 
Reservation, and (iii) Mary's Creek, which is part of the Bruneau River 
Basin in Idaho. These water sources were intended to supply water for 
tribal uses, including irrigated agriculture, stock raising, fisheries, 
wildlife and domestic use. Those intentions have never been fully 
realized.
    Our people have a long history of being agriculturists. Even before 
the Duck Valley Reservation was established, many of our people 
successfully engaged in agriculture beginning in 1875 at Carlin Farms, 
a nearby area reserved by Executive Order for this purpose. Despite 
their farming success, our people were forced to abandon their 
improvements when the Executive Order reserving Carlin Farms was 
withdrawn due to pressure from white settlers in the area. \1\
---------------------------------------------------------------------------
    \1\ JRP Historical Consulting, Duck Valley Indian Reservation: 
Creation, Purposes and Water Development (hereafter JRP Report) July 1, 
2005, at 11-17-18.
---------------------------------------------------------------------------
    When the present Duck Valley Reservation was established in 1877 
and settled by our People, agriculture remained a focus. However, by 
1890, it became apparent to the Tribes and the Federal Government that 
flows from the Owyhee River, Blue Creek and Mary's Creek were seasonal, 
and facilities to store water would be necessary to realize the full 
potential for irrigated agriculture on our lands. For the next 40 
years, our tribal leaders and officials from the BIA tried 
unsuccessfully to obtain a water storage facility to support irrigation 
on our reservation.
    Our struggles during this time were complicated by several factors 
including rapidly increasing non-Indian settlement in the areas 
surrounding our reservation; over-appropriation of Blue Creek upstream 
of the Reservation in Idaho; ever increasing use of water by non-
Indians south of the Reservation in Nevada; and Bureau of Reclamation 
(BOR) opposition to the construction of a water storage facility on the 
Reservation. This BOR opposition was based on the concern that 
construction of the Wild Horse Dam and Reservoir would compromise the 
future of the Owyhee Project, which served downstream non-Indian water 
users in Oregon and Idaho.
    Throughout the struggle to obtain sufficient storage water to 
support agriculture on the Reservation, the need to take steps to 
establish and protect the Tribes' water rights was identified over and 
over. Yet, no steps were taken by the Federal Government to protect 
this vital resource. Even though specific requests were made to the 
Justice Department on at least two occasions, and even though a 
detailed complaint was prepared by the Justice Department in connection 
with the Tribes' rights in the Owyhee River, the Federal Government 
never followed through to establish and protect the Tribes' water 
rights. In the meantime, ever increasing use of water both to the north 
and to the south of the Reservation continued.
Duck Valley Irrigation Project/Wild Horse Reservoir
    Ultimately, our leaders were successful in establishing a formal 
Indian irrigation project in 1938, including critical storage for the 
project. Funding was first authorized by Congress for Wild Horse Dam 
and Reservoir in 1931, and construction was completed by 1938 to 
finally provide stored water to serve our reservation. Even with the 
construction of the Wild Horse Dam, however, the water resources of our 
Tribes were sacrificed for the benefit of non-Indian water users. The 
Wild Horse Dam and Reservoir were located nearly 15 miles south of the 
Reservation in a location that permitted 60 percent of the drainage 
flows from the Owyhee River to bypass the Wild Horse Dam and flow 
downstream to serve the Owyhee Project and meet off-reservation needs. 
The resulting loss of water has limited the number of acres of 
agriculture the Tribes can cultivate to 12,800 acres rather than up to 
24,000-30,000 acres if the Wild Horse Dam was properly placed. \2\
---------------------------------------------------------------------------
    \2\ The Bureau of Reclamation actively opposed the authorization 
and construction of the Duck Valley Reservoir because of concerns it 
would interfere with its own BOR Owyhee Project water supply, causing 
significant delays in construction of storage for the Duck Valley 
Project. JRP Report at VII-29-41. The BOR also actively opposed an 
adjudication of Duck Valley water rights that was proposed in the 
1930s.
---------------------------------------------------------------------------
    The Bureau of Reclamation's Owyhee Project downstream in Oregon and 
Idaho, was planned, authorized and constructed during the same time 
period, and BOR treated the Tribes' Project as competition for Owyhee 
water. Rather than protecting the prior and paramount rights of the 
Tribes, however, the Federal Government acted to protect flows from the 
Owyhee River for the benefit of non-Indian water users. Just as 
devastating to our people was the destruction of Tribal fisheries 
caused by the Owyhee Project. The Project Dam was constructed without 
fish ladders or other devices to protect anadromous fish runs of salmon 
and steelhead to the Reservation. What was once an abundant resource to 
our people for subsistence and commerce was completely destroyed and 
forever lost as a result of the construction of the BOR Owyhee Project 
Dam. \3\
---------------------------------------------------------------------------
    \3\ It has been estimated that the average annual consumption of 
salmon and steelhead for each tribal member was 143 pounds. This amount 
does not take into consideration the Tribes' use of salmon and 
steelhead for trade and commerce.
---------------------------------------------------------------------------
Federal Enforcement Efforts Abandoned
    In an effort to firm up a water supply for the Reservation, the 
Justice Department prepared a detailed case in the 1930s to adjudicate 
the Tribes' water rights in the Owyhee River based on the Winters 
Doctrine. The filing of such an adjudication was recommended in a 
number of comprehensive irrigation reports prepared for the BIA, 
including a report completed by Charles Engle, an irrigation expert 
appointed by the Secretary of the Interior, who advised that the 
Tribes' water rights needed immediate protection. \4\ Although a 
comprehensive bill of complaint was developed by the Justice 
Department, the case was never filed and was actively opposed by BOR. 
\5\ Ultimately, it took the recommendations of a special attorney 
appointed by the Secretary, Louis Crampton, who undertook yet another 
exhaustive report on irrigation at Duck Valley, to bring about the 
construction of Wild Horse Dam in the face of BOR opposition. Yet the 
additional step of establishing and protecting the Tribes' water rights 
was never taken. JRP Report at VII-41-58.
---------------------------------------------------------------------------
    \4\ JRP Report at VII-23-27.
    \5\ JRP Report at VII-27-40, 59.
---------------------------------------------------------------------------
    The Tribes' water rights in Blue Creek and Mary's Creek have 
suffered a similar fate. Beginning at the turn of the century, non-
Indian water users had constructed extensive diversion facilities on 
Blue Creek preventing flows from reaching the Reservation and causing 
several successful tribal farms to go out of business. \6\ Once again 
adjudication was recommended to no avail, even though it was recognized 
at the time that: ``The longer this matter is deferred, the more 
numerous and difficult will be the questions relative to water supply, 
as water is being continually appropriated on all of these streams, 
both above and below the Reservation.'' \7\
---------------------------------------------------------------------------
    \6\ JRP Report at VI-1-14.
    \7\ JRP Report at VI-13.
---------------------------------------------------------------------------
    The Federal officials responsible for protecting the Tribes' water 
rights continually deferred taking action to establish Duck Valley 
water rights in favor of development by non-Indians above and below the 
Reservation, and in favor of the BOR Owyhee Project. At every turn, the 
Tribes' water rights were continually sacrificed for the benefit of 
non-Indian water users.
Duck Valley Indian Irrigation Project, A Failed Promise
    The Duck Valley Indian Irrigation Project (DVIIP), which was 
finally constructed in 1938 along with the Wild Horse Dam as its 
storage facility to deliver water to irrigate agricultural lands on the 
Reservation, was never completed, and its promise has remained 
unfulfilled. As constructed, the DVIIP would only deliver water to 
12,800 acres of reservation lands, not the full 24,000 acres of 
irrigable reservation lands that had been identified by a number of 
studies conducted by the government. Thus, the Tribes' goal of 
maximizing the amount of irrigated agricultural lands has never been 
fully realized.
    Over the years, the Federal Government has not provided sufficient 
funds to adequately maintain the DVIIP, and the fees generated by the 
DVIIP are insufficient to even nominally maintain the DVIIP. Since the 
1960s, the DVIIP has been required to operate on an annual budget of 
$60,000, the amount of the operation and maintenance fees charged to 
water users. As a result, the DVIIP has fallen into a substantial state 
of disrepair. Of the 12,800 acres of DVIIP lands, 7,000 acres are in 
sub-optimal production and the remaining 5,800 acres are currently 
fallow because of the deteriorating facilities and poor engineering. In 
addition to the reduced number of acres in production, those DVIIP 
lands that remain under active irrigation suffer from lower yields and 
less income than similarly situated off-reservation farms due to less 
than optimal cropping patterns. \8\
---------------------------------------------------------------------------
    \8\ See the attached graph depicting the comparative cropping 
patterns in Idaho, Nevada, and the Shoshone-Paiute. It should be noted 
that alfalfa is a higher income producing crop than hay.
---------------------------------------------------------------------------
    The subsidies that were promised to the Project have never 
materialized, and the level of disrepair has steadily increased. Some 
of the problems plaguing the DVIIP include overgrown and silted 
irrigation ditches, non-functioning gates and turnouts, and poorly 
engineered and unlined irrigation ditches, resulting in a highly 
inefficient delivery system and steadily declining agricultural 
production. Based on our current estimates, it will cost over $10.7 
million to fully rehabilitate the DVIIP to bring all 12,800 acres of 
agricultural lands into production.
    For the last 5 years, the Tribes have operated and maintained the 
Project under a Memorandum of Agreement and now as part of our Self-
Governance Compact. Some improvement has occurred, but without 
significant funds to rehabilitate and better the Project, and to cover 
operation costs, progress is minimal.
Settlement Negotiations
    Mr. Chairman, we have been engaged in negotiations with private 
water users, the State of Idaho, the State of Nevada, and the Federal 
Government to settle our water rights claims for over 15 years. It 
should be noted that the parties conducted these negotiations 
consistent with the Department of the Interior's policy for the 
settlement of claims concerning Indian water resources. Throughout this 
process, the Shoshone-Paiute Tribes and all of the other parties have 
anticipated a significant Federal contribution to our settlement. In 
fact, the Federal negotiating team reported to the Tribes that it would 
recommend a Federal contribution of $44.9 million to settle the Tribes 
water rights claims. At the point where we had reached agreements with 
all parties to settle our claims, we learned that the Federal 
Government, at the direction of OMB, had abandoned their prior offer 
and reduced the Federal contribution to $6 million. Further, the 
Federal Government is now taking the position that there must be a 
substantial state contribution to settlement, even though, at Duck 
Valley, the issues and responsibilities are almost entirely Federal. 
This abrupt shift in position has caused all of the parties in our 
settlement to re-examine their respective positions and consider their 
litigation alternatives.
    In fact, because of the delay in reaching agreement on a Federal 
contribution, the State of Idaho abandoned the Idaho portion of the 
settlement and made an offer of judgment to resolve the Tribes' water 
rights claims through a consent decree. The consent decree was entered 
by the Idaho court on December 12, 2006, and decreed the Tribes' water 
rights in Idaho. Under the decree the Tribes' have approximately 19,516 
acre-feet in the Owyhee River and its tributaries, including Blue 
Creek, based on the water necessary for domestic/commercial/municipal/
commercial purposes, irrigation, reservoir storage, stock water and 
instream flow for stock and wildlife. The Tribes' claims for lake level 
maintenance, wildlife habitat and instream flows for fisheries were 
disallowed. The consent decree in Idaho did not resolve any of our 
water related claims against the Federal Government, however; nor did 
it provide the means to put any of the Tribes' water to use. Thus the 
need for the present Federal settlement remains undiminished.
    Mr. Chairman it is particularly disheartening to our people that 
after 15 long years of negotiations with representatives of the Federal 
Government, including the Bureau of Reclamation, the Bureau of Indian 
Affairs and the Department of Justice, the results of those lengthy and 
difficult negotiations, including the original recommendation of a 
Federal contribution of $44.9 million, can be delayed and even wiped 
out by certain Federal officials at the 11th hour of the process. These 
Federal officials have never engaged in or participated in negotiations 
with our Tribe and have never set foot on our Reservation to see the 
challenges we must contend with each day.
    Indeed, as a result of the intransigence of the Federal Government 
in moving forward with a comprehensive settlement in a timely fashion, 
the Tribes had little choice but to accept the offer of judgment made 
by the State of Idaho involving the Tribes' water rights in Idaho. Time 
literally ran out in the face of the litigation schedule set by the 
Idaho courts, and in the face of the unwillingness of the Federal 
Government to reconsider its proposed Federal contribution of $6 
million.
    On a more positive note, our settlement agreement with the State of 
Nevada and private water users in Nevada provides the Tribes with 
111,476 acre-feet of surface water from the Owyhee River, storage water 
in the Wild Horse Reservoir, all water flows originating from springs 
and creeks on the Reservation, and 2,606 acre-feet of ground water, 
plus perennial yield. At the same time, the agreement protects the use 
of water by irrigators upstream (south) of the Reservation. The 
agreement is premised on allowing the upstream irrigators to continue 
their flood irrigation in the same manner they historically have 
irrigated, without interference, provided that the overall acreage 
agreed upon by the parties is not exceeded. The agreement also provides 
a small amount of storage to the upstream water users.
    The Nevada agreement, together with the Tribes' decreed rights in 
Idaho, fulfills a critical aspect of our overall goal of creating a 
fully sustainable homeland for our people. Yet, there is one major 
element that remains unresolved. We will not be able to realize a fully 
sustainable homeland for our people without a significant Federal 
contribution to our settlement. A significant Federal contribution is 
essential to enable the Tribes to fully utilize their water through the 
rehabilitation and construction of water delivery structures necessary 
to transport water from the Wild Horse Dam and Reservoir and from Blue 
Creek, to restore and protect Reservation fisheries and critical 
wildlife habitat throughout the Reservation, and for the construction 
of other essential water related projects.
Conclusion
    The Tribes cannot help but view the government's recent change in 
position as eerily similar to its past failures to secure water 
necessary to make our reservation a permanent homeland. It bears 
repeating that the United States is directly responsible for failing to 
protect the Tribes' water rights in the face of non-Indian development, 
failing to properly operate and maintain the Duck Valley Indian 
Irrigation Project, failing to properly site reservoirs and storage 
facilities in order to avoid waste of water resources, and failing to 
protect the Tribes' salmon fishery.
    Mr. Chairman, rather than continue to focus on the past, the Tribes 
are committed to securing a stable and productive future for our 
people. In this regard, we believe that a Federal contribution of 
$60,000,000 would reasonably support the return of a viable Reservation 
for our people. This amount is significantly less than the $135,090,000 
that is supported by our damages claims against the Federal Government, 
which satisfies a key component of the Department of the Interior's 
water rights settlement policy. Nevertheless, this amount would enable 
the Shoshone-Paiute Tribes to:

  <bullet> Rehabilitate the Duck Valley Indian Irrigation Project
  <bullet> Develop a portion of Owyhee PIA lands
  <bullet> Provide a delivery system from Blue Creek
  <bullet> Develop a Stream Bank Maintenance Program
  <bullet> Make Reservoir Repairs
  <bullet> Develop a Wildlife Habitat Project
  <bullet> Provide for a Municipal Water System
  <bullet> Capitalize a DVIIP Operation, Maintenance and Repair Trust 
        Fund
  <bullet> Provide an economic development fund
  <bullet> Provide for Land Acquisition
  <bullet> Develop a Water Management Plan and Code

    Unfortunately, as we sit here today, the offer on the table from 
our Federal trustee is not the original recommendation of $44.9 million 
but less than 15 percent of that amount. We have participated in the 
Federal Government's negotiation process. We have followed the Federal 
Water Settlement Guidelines and we now have a Nevada settlement 
agreement on the table for approval.
    It is respectfully submitted that it is time for the United States 
of America to fulfill the promises of a generation past by providing a 
Federal contribution of $60,000,000 to settle the water rights claims 
of the Shoshone-Paiute people and to fulfill the vision of our 
forefathers: the creation of a sustainable homeland for the Shoshone-
Paiute people. S. 462 is a just and fair bill that would help us to 
realize our vision upon passage.
    Thank you.
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    The Chairman. Chairman Prior, thank you very much. You are 
Chairman of the Shoshone-Paiute Tribes. Is that correct?
    Mr. Prior. That is correct.
    The Chairman. And how long have you been Chairman?
    Mr. Prior. Since October, sir.
    The Chairman. All right.
    Our final witness is Allen Biaggi. Allen Biaggi is here 
today representing the State of Nevada. Mr. Biaggi is Director 
of the Department of Conservation and Natural Resources in the 
State of Nevada.
    Mr. Biaggi, were you and the State involved in these 
negotiations?
    Mr. Biaggi. Yes, sir; we were.
    The Chairman. Why don't you proceed? Your entire statement 
will be made part of the permanent record. You may summarize.

STATEMENT OF ALLEN BIAGGI, DIRECTOR, DEPARTMENT OF CONSERVATION 
                AND NATURAL RESOURCES, STATE OF 
                             NEVADA

    Mr. Biaggi. Good morning, Mr. Chairman. Thank you for 
allowing me to be here today in strong support of S. 462, on 
behalf of the State of Nevada.
    For background, the Owyhee River system is located in 
extreme Northeastern Nevada on the Idaho border. The system is 
unique to the State in that it is only one of a handful of 
rivers and streams that do not have their terminus in the Great 
Basin.
    Our major river systems, such as the Carson, Truckee, 
Walker, and Humboldt all drain internally in the State into 
internal lakes and playas. These waters never reach the ocean. 
The Owyhee, on the other hand, is a tributary to the Snake 
River and to the Columbia system with its terminus in the 
Pacific Ocean. The Owyhee is also unique in that it is the only 
major waterway shared by Nevada and Idaho and, of course, the 
Shoshone-Paiute Tribes of the Duck Valley Indian Reservation.
    As you all know, Nevada is the most arid State in the 
Union. As such, water is a precious and highly valued 
commodity. The United States, on behalf of the tribes, has 
filed various claims for reserved water rights. Water users on 
the East Fork of the Owyhee River have also filed claims for 
vested rights or have obtained permits for water rights under 
Nevada law. Many of these claims are competing, resulting in 
disputes and the potential for protracted litigation.
    About 1 decade ago, negotiations began between the 
Shoshone-Paiute Tribes, the United States, the State of Nevada, 
and the upstream water users, with the goal of resolving the 
water rights claims in an amicable manner in the absence of an 
administrative or court process. Discussions became more 
focused and results-oriented about 5 years ago and the Owyhee 
River Agreement is the product of those negotiations. It should 
be noted that in the grand scheme of water rights negotiations, 
the resolution of a system as complex as the Owyhee, with its 
varied interests and multiple parties, in only a decade is 
almost unprecedented.
    In speaking for the State of Nevada, we are proud to be a 
part of this agreement and we applaud all the parties for their 
hard work and diligence. We also have agreed to certain 
financial and operational commitments which underscores our 
support of the settlement. Specifically, the State of Nevada 
will provide the services of a Water Commissioner to oversee 
and enforce the agreement and we will fund and maintain two 
critically important stream flow gauges on the East Fork of the 
Owyhee River.
    With regard to the upstream water users, that is those 
farmers and ranchers who have long had a presence on the East 
Fork of the Owyhee, I would never be so presumptuous as to 
speak for them. I know a representative for them could not be 
here today. I do know, however, that their position on the 
agreement can be summarized by noting that during the 
negotiation process there was a considerable amount of give and 
take on both sides, and that neither side is entirely 
satisfied.
    The upstream water users believe the agreement is the best 
possible under the conditions and the circumstances. The 
upstream water users and the members of the tribes have always 
been able to resolve water matters in a manner which considers 
both parties, and this agreement further demonstrates that 
spirit.
    In closing, I would like to thank Senator Reid for 
introducing S. 462 to ratify this agreement, and to his very 
capable and competent staff. S. 462 is in the best interest of 
the tribes, the upstream water users, and most importantly, the 
precious water resources of the West.
    I would be pleased to answer any questions you may have.
    [The prepared statement of Mr. Biaggi follows:]

      Prepared Statement of Allen Biaggi, Director, Department of 
          Conservation and Natural Resources, State of Nevada
    Good morning Chairman Dorgan, and Indian Affairs Committee members, 
my name is Allen Biaggi and I am the Director of the Nevada Department 
of Conservation and Natural Resources. This morning I am speaking in 
support of S. 462 on behalf ofthe State of Nevada.
    For background, the Owyhee River system is located in extreme 
northeastern Nevada on the Idaho border. The system is unique to the 
state in that it is one of only a handful of rivers and streams that do 
not have their terminus in the Great Basin. Our major river systems 
such as the Carson, Truckee, Walker and Humboldt all drain internally 
in the State into terminal lakes or playas. These waters never reach 
the ocean. The Owyhee, on the other hand, is tributary to the Snake 
River and the Columbia system with its terminus in the Pacific Ocean. 
The Owyhee is also unique in that it is the only major waterway shared 
by Nevada and Idaho and of course the Shoshone-Paiute tribes of the 
Duck Valley Indian Reservation.
    Nevada is the most arid state in the union. As such water is a 
precious and highly valued commodity. The United States, on behalf of 
the Tribe, has filed various claims for reserved water rights. Water 
users on the East Fork of the Owyhee River have also filed claims for 
vested rights or have obtained permits for water rights under Nevada 
law. Many of these claims are competing, resulting in disputes and the 
potential for protracted litigation.
    About a decade ago, negotiations began between the Shoshone-Paiute 
Tribes, the United States, the State of Nevada and the upstream water 
users with the goal of resolving the water rights claims in an amicable 
manner in the absence of an administrative or court process. The 
discussion became more focused and results oriented about 5 years ago 
and the Owyhee River Agreement is the product of those negotiations. It 
should be noted that in the grand scheme of water rights negotiations, 
a resolution in a system as complex as the Owyhee with its varied 
interests of multiple parties in only a decade is almost unprecedented.
    In speaking for the State of Nevada, we are proud to be part of 
this agreement and we applaud all of the parties for their hard work 
and diligence. We also have agreed to certain financial and operational 
commitments which underscore our support of the settlement. 
Specifically, the State of Nevada will provide the services of a Water 
Commissioner to oversee and enforce the agreement and we will fund and 
maintain two critically important stream flow gages on the East Fork of 
the Owyhee River.
    With regard to the upstream water users, those farmers and ranchers 
who have long had a presence on the East Fork of the Owyhee, I would 
never be so presumptuous as to speak for them. I know a representative 
for them could not be here today. I believe however that their position 
on the agreement can be summarized by noting that during the 
negotiation process there was a considerable amount of ``give and 
take'' on both sides and that neither side is entirely satisfied. The 
upstream water users believe the agreement is the best possible under 
the conditions and circumstances. The upstream water users and the 
members of the Tribes have always been able to resolve water matters in 
a manner which considers the needs of both parties and this agreement 
is a further demonstration of that spirit.
    In closing, I would like to thank Senator Reid for introducing S. 
462 to ratify this agreement and to his very capable and competent 
staff. S. 462 is in the best interest of the Tribes, the upstream water 
users and, most importantly, the precious water resources of the west.
    I would be pleased to answer any questions you may have.
                                 ______
                                 
                 Owyhee River Water Agreement Overview
    The Duck Valley Indian Reservation was established by Congress in 
1877 and further defined by Executive Orders in 1886 and 1910. On 
behalf of the Duck Valley Tribe, the United States has filed various 
claims for reserved water rights. Water users on the Owyhee River have 
also filed claims for vested rights or have obtained permits for water 
rights under Nevada law. Many of these claims are competing, resulting 
in disputes and litigation.
    It is the desire of all of the parties to settle the water rights 
claims in an amicable manner in the absence of an administrative or 
court process. The Owyhee Agreement serves to settle these disputed 
claims and fairly allocate the surface and ground water resources 
within the basin.
Parties to the agreement:

        Duck Valley Indian Reservation
        Individual water users on the East Fork Owyhee River
        The United States on behalf of the Tribe
        The State of Nevada

Details of the Agreement
    Negotiation of the agreement has been underway for about 4 years. 
The State of Nevada, through contract services, had Pete Morros, former 
State Engineer and DCNR Director head the effort. Other individuals 
participating in the process were Jeannie Whiteing, Esq. of Whiteing 
and Smith, Boulder Colorado representing the United States and Joe Ely, 
representing the Tribe. David Stanton, Esq. of Elko represented the 
upstream water users.
    Under the agreement, the tribe shall have right to 111,476 acre 
feet of surface water annually with a priority date of April 16, 1877. 
The Tribe shall also have rights to springs and creeks located on 
tribal lands. The Tribe may use this water for any purpose that may be 
authorized by its governing body including use of that water off the 
reservation with the provision that such use be compliant with Tribal 
and State law.
    Additionally, the Tribe may pump up to 2,606 acre-feet of ground 
water based on water currently or historically used on the Reservation. 
Ground water must be appropriated in accordance with Tribal Water Law 
(which must be substantially similar to Nevada Water Law) but the 
amount cannot exceed the perennial yield within the reservation 
boundaries.
    Water amounts for use by the upstream water users is defined in the 
agreement by maps of currently irrigated areas and specific duties for 
various uses and crops. The agreement specifies a process for 
determining water availability in a given hydrologic year, storage in 
Wildhorse Reservoir and a process of allocation in times of shortage.
    The agreement has provisions for dispute resolution and defines the 
State Court as the court of competent jurisdiction.
    Reserve rights for tribes is a major issue in the West. It is 
clearly stated that the agreement is not precedent setting for these 
rights or for future agreements in Nevada.
    Through the agreement the State shall provide the services of a 
water commissioner to oversee and enforce this agreement. The State 
also agrees to fund and maintain two stream flow gages on the Owyhee 
River.

    The Chairman. Mr. Biaggi, thank you very much.
    Mr. Ragsdale, let me start with you first. The BIA in the 
Department of the Interior were originally a part of 
negotiations, I believe, for 15 years to try to resolve this 
dispute. Let me ask historically, do you believe that the 
Federal Government mishandled, aggrieved, and injured the 
Shoshone-Paiute Tribes with respect to the way it handled water 
rights early on?
    That tribe, as I understand it from Mr. Prior's testimony, 
was placed on the Duck Valley Reservation in the late 1800s, 
1877. At that point, the chairman of the tribe, Mr. Prior, has 
described the circumstances under which the tribe was 
shortchanged. They perhaps would feel cheated because water 
rights they expected to have were not available to be used.
    So the question is: Does the Federal Government have some 
responsibility and liability to this tribe in the way that it 
mishandled water rights, in your judgment?
    Mr. Ragsdale. Well, I would agree with much of what the 
Chairman has testified to here today. I would agree that the 
Federal Government has a responsibility, in its role as 
trustee, to help develop water rights and protect Indian water 
rights. The Chairman's story about his tribe is not unlike a 
lot of Indian tribes that are negotiating their water rights, 
or that have negotiated their water rights. So I would not 
disagree.
    The Chairman. So then did the Government adequately protect 
the water rights of this Indian tribe, in your judgment?
    Mr. Ragsdale. The situation is what it is.
    The Chairman. I understand that.
    Mr. Ragsdale. The irrigation project was never fully 
completed.
    The Chairman. I understand that. My question was not that. 
My question was, did the Federal Government meet its 
responsibility to adequately protect the water rights of this 
Indian tribe?
    Mr. Ragsdale. With due respect, Mr. Chairman, I don't think 
that I should be answering that question. I am not a lawyer and 
I am not representing the Department of the Interior as its 
lawyer.
    The Chairman. But the Department was involved for 15 years 
in a settlement. The reason I am asking that question is 
because there is something curious going on here. The 
Department of the Interior on behalf of the Federal Government 
was involved for 15 years in negotiations with the tribe, with 
the other non-Indian users, with the State. And originally, I 
believe, and you might correct me if I am wrong, talked about a 
potential settlement of $44 million, and then reduced that to 
$10 million.
    The implication of that, of course, is first, that the 
Federal Government, at least during the negotiations, felt 
there was some kind of a liability, perhaps because they 
mishandled the water rights; and second, something happened in 
the negotiations that persuaded the Federal Government to 
decide they won't settle for $44 million, but they will try to 
reduce that to $10 million.
    Can you give me some background on why that occurred?
    Mr. Ragsdale. I will try to, Mr. Chairman.
    It is my understanding that the water rights team at the 
time that the $45 million number was mentioned were authorized 
to present that number at the table, but the final number had 
not been approved through all the channels of the Federal 
Government, that is, through the Department of Justice and the 
Office of Management and Budget.
    Now, the Department of the Interior has been engaged with 
the tribe and the State, it is my understanding, until the last 
year, but the departmental water team has not been engaged in 
finalizing the proposed agreement. My understanding is that the 
team could be engaged in negotiations very quickly to go over 
some of the technical concerns that are embodied in the 
proposed water agreement that the bill embraces, and also to 
talk about the monetary share and allocation and try to work 
through that.
    The Chairman. Mr. Ragsdale, it appears to me that the 
negotiation is complete, although you have some concerns about 
it. The reason I am asking you these questions, I think there 
is something curious here about your saying that the team from 
the Department of the Interior Department of the Federal 
Government at one point proffered $40 plus million as a 
settlement offer, but you said that was withdrawn because even 
though they were at the table negotiating and offered that, 
somehow OMB had not approved it, or Justice had not approved 
it? That is a curious way to engage in negotiations, offer 
something that has not been approved?
    Mr. Ragsdale. Perhaps that is so. I wasn't around so that I 
can tell you exactly what happened, but it is my discussion, 
and it is common in negotiations; 10 or 20 years ago, I served 
on some water teams and tried to solve some Indian water rights 
issues. Often in terms of the negotiation, you will have 
numbers that are proffered and discussed between the teams, and 
then the teams have to get back to the ultimate decider and 
decide what can be agreed to. That is where we are now.
    The Chairman. It is curious to me. Normally in 
negotiations, those that offer something have the authority to 
offer it. You are suggesting that we have people who come to a 
table offering something they don't have authority to offer.
    I am a little disappointed that after 15 years, a 
negotiation occurs which appears to mean every side has given 
something. The non-Indian users, the Indian tribe, everybody 
has given a little something, having been participants in the 
negotiations for a long while. The sole exception here is the 
Department of the Interior, the Federal Government, which I 
think caused the problem, pulls out of the negotiations and 
says, not us, not now.
    I think that is a curious way to deal with this issue, 
given the history. But you have a right to do so, certainly, 
and we asked you to come to this hearing because we want your 
opinion. But I must tell you, I am very disappointed because it 
seems to me that the Federal Government has mismanaged the 
water rights of this tribe, and I believe that is the case over 
a long period of time. This is not unique. It has happened in a 
lot of parts of this Country, as you just said.
    I think one of the first obligations of the Federal 
Government is to aggressively participate in negotiations to 
reach an agreement, a fair settlement for the tribe.
    Mr. Ragsdale. Mr. Chairman, if I could just say?
    The Chairman. Yes?
    Mr. Ragsdale. Again, we hope to be able to do that. I think 
that there are some technical issues that the experts in the 
department have talked to me about, that they think they can 
work with the tribes and the State to come to resolution with. 
And then the main issue is going to be the monetary 
contribution and the share. I would hope that we would get to 
closure on that quickly.
    The Chairman. Mr. Ragsdale, I think the train has left the 
station. You might have a ticket, but the train is gone. So we 
will see.
    Chairman Prior, I asked the question you referred to it in 
your testimony. You feel as a result of this agreement that you 
have given some. I understand. Are you completely happy with 
the negotiated settlement that you come here supporting on 
behalf of your tribe?
    Mr. Prior. Mr. Chairman, historically it has been 
documented that this tribe's claims against the Federal 
Government could be around $138 million. Through negotiations 
with the Federal team, and that give and take that you just 
spoke of, this tribe has given up quite a bit to come to this 
point, where we feel we could resolve our claims against the 
U.S. Government in the area of water once and for all.
    The amount $44.9 million in good faith was reported to the 
tribes. My leadership truly believe that they were the ones to 
make that offer and to have the offer stick. To walk away from 
a negotiation and not have it go anyway was totally 
disheartening, but we are very hard-working people. My people 
are ranchers and agriculturalists at heart, and they have been 
since they were removed from their homelands to live here. We 
have made do with what we have so far. If it has been 
cultivating 12,000 acres, so be it. We have done the best we 
could. But this would definitely make the reservation a 
thriving agricultural economy once again.
    The Chairman. How many enrolled members do you have in the 
tribe, Chairman Prior?
    Mr. Prior. We have nearly 2,000 enrolled members, sir.
    The Chairman. Is this still principally an agricultural 
tribe?
    Mr. Prior. It is. Agriculture is still the heart of our 
tribe's economy. We have ranchers who produce alfalfa and hay 
for their livestock. Of course, water is part of the fisheries 
issue as well.
    The Chairman. Mr. Biaggi, with respect to the State of 
Nevada and its position in this negotiation, I assume you were 
representing the State's interest, but also trying to bridge 
the interests of the non-Indians who moved in to fill the void 
of water rights the Indians thought that they possessed. Do you 
think this is a fair settlement? Do you think the legislation 
offered by Senators Reid and Ensign represent an appropriate 
way to resolve this dispute?
    Mr. Biaggi. Mr. Chairman, I do. The State of Nevada is rife 
with conflicting water issues, not only on the Owyhee, but 
every major river system. We are very pleased and honored to be 
a part of the discussions and the negotiations, and to be a 
part of this agreement. The State of Nevada has stepped up with 
its commitments to assist the tribe and the water users in a 
fair allocation of the water. We look forward to this moving 
forward, and we again thank Senator Reid and believe this is 
good legislation.
    The Chairman. We have been joined by the Vice Chairman of 
the Committee, Senator Craig Thomas from Wyoming. Senator 
Thomas, welcome.

                STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. Thank you. I am sorry. I had a conflicting 
meeting, so I won't take more time, since I didn't hear the 
testimony, but I am glad you had the hearing. Certainly, I hope 
we can help come to some agreement to get this thing completed.
    The Chairman. Senator Thomas, thank you. It is clear to us, 
as I think all of the witnesses have stated, water rights 
represent a controversial set of issues, not just in Indian 
country, but in many other venues around the Country. But it is 
the case, I think, that water rights on behalf of tribal water 
rights have been mishandled terribly in many cases by the 
Federal Government.
    That is why, Mr. Ragsdale, I want you to succeed. I want 
the BIA to do well. I want you to make good policy. But I have 
to tell you, I am disappointed that every party to these 
negotiations, that have gone on for a long, long time, every 
party, the Tribes, the non-Indian water users, and the State of 
Nevada, has now agreed to a negotiated settlement except the 
Department of the Interior. I find that disappointing because, 
as I indicated, the history here shows the Department of the 
Interior was involved.
    I am not just talking about this Administration. I am 
talking about going back 15 years. The Department of the 
Interior was involved in negotiations and actually proffered a 
settlement of $44 million at one point, and then withdrew it. I 
am wondering, and I hope this is not the case, if there are 
some in the Office of Management and Budget that think it is 
cheaper to go to court than it is to settle. I would hope that 
is not the case, because the Federal Government has 
responsibility for mishandling water rights on behalf of 
tribes. We have a trust responsibility, and we need to be 
aggressively searching for a fair settlement. That ought to be 
our responsibility.
    This piece of legislation is bipartisan introduced by both 
of the Senators in the State of Nevada. Senator Thomas and I 
will take it under advisement with our other Committee members 
and hope to move ahead. My sense is that this negotiation, 
hard-fought over a long period of time, will be the kind of 
thing that will settle a longstanding water dispute. I am 
inclined to hope that this Committee will be able to take 
effective action to move this to the Floor of the Senate.
    Do any of the witnesses have any other comments? If not, 
thank you.
    This hearing is adjourned.
    [Whereupon, at 10:35 a.m., the Committee was adjourned.]
                            A P P E N D I X

    Prepared Statement of Hon. John Ensign, U.S. Senator from Nevada
    Mr. Chairman, Senator Thomas, and Distinguished Members of the 
Committee:
    Thank you for holding this important hearing on S. 462, The 
Shoshone-Paiute Tribes of Duck Valley Water Rights Settlement Act. It 
is my pleasure to provide written testimony in support of this measure. 
I also wish to thank Senator Harry Reid for his leadership on this bill 
and for the work of Tracy Hartzler-Toon, a staff member for this 
Committee
    The Duck Valley Indian Reservation is the homeland of the Shoshone-
Paiute Tribes. The reservation, established by Executive Order in 1877, 
encompasses approximately 290,000 acres across Nevada and Idaho, 
including the Owyhee River and two blue line streams. In the 1930s, the 
Shoshone-Paiute Tribes' fishing industry was damaged, as the area 
salmon runs were ruined with the construction of the Bureau of 
Reclamation's Owyhee Irrigation Project Dam. Salmon fishing was an 
integral part of the Tribes' economic and cultural livelihood.
    The Bureau of Indian Affairs oversaw the Duck Valley Indian 
Irrigation Project. The project encompassed 12,000 acres of land that 
became the Wild Horse Reservoir, the primary water storage facility 
located fifteen miles south of the Reservation. The project provided 
very little, if any, economic benefit for the Tribes. Finally, after 
years of negotiations, all parties involved have reached an agreement.
    S. 462 achieves two things. First, it ratifies the Owyhee River 
Settlement in Nevada that was reached in 2006. Additionally, the 
Shoshone-Paiute Tribes would receive $60 million. This money would be 
allocated for the acquisition of land and water rights, and create and 
maintain water-related projects. These projects will assist the Tribes 
economic development by producing a functional irrigation system; 
promoting wildlife habitat restoration; and development of fish 
hatcheries. This legislation provides the Shoshone-Paiute people with 
long-term economic security, more opportunities for prosperity, and a 
foundation to become more economically self-sufficient.
    I applaud all the groups for coming together to reach an 
understanding on these difficult water rights issues. The Elko County 
Commission, the State of Nevada and Governor Jim Gibbons, upstream 
water users and the Tribes.
    I look forward to working with my colleagues in the Senate to pass 
this legislation and addressing any concerns.
                                 ______
                                 
Prepared Statement of Hon. Dean Heller, U.S. Representative from Nevada
    Mr. Chairman and Members of the Committee on Indian Affairs, thank 
you for inviting me to give testimony on the Shoshone-Paiute Tribes of 
Duck Valley Water Rights Settlement Act. This legislation will settle 
water rights claims that have gone unresolved far too long for the 
Shoshone-Paiute Tribes of the Duck Valley Reservation in my district in 
northern Nevada.
    The Duck Valley Reservation was established in 1877 and is located 
along the Nevada/Idaho border. Water in the arid western states is a 
precious commodity and is the lifeblood for farmers, ranchers, and 
wildlife. Without proper water management, none of this can exist.
    With the appropriate allocation of the East Fork of the Owyhee 
River, Blue Creek, and Mary's Creek, the Tribe can realize its full 
potential for raising livestock, farming, fisheries, and maintain 
healthy wildlife populations. As you can see, this legislation is very 
important for the health of the Duck Valley Reservation.
    The Shoshone-Paiute Tribes of Idaho and Nevada have engaged in 
negotiations to resolve the water rights of the Duck Valley 
Reservation. The legislation under consideration today approves, 
ratifies, and confirms the agreement that the Shoshone-Paiute Tribes of 
the Duck Valley Indian Reservation and the Upstream Water Users of the 
East Fork Owyhee River.
    The Duck Valley Water Rights Settlement Act will complete the water 
agreement and provide adequate funding for water management and 
irrigation projects. I intend to introduce companion legislation in the 
near future to finally help resolve this important Issue.

                                  <all>

</pre></body></html>
